cument: 00515675598

Case: 20-20058

Page: 1

ate Filed: 12/16/2020

fHmteti g>tate£ Court of Appeal*
for tfje Jftftfj Circuit

United States Court of Appeals
Fifth Circuit

FILED

December 16, 2020
Lyle W. Cayce
Clerk

No. 20-20058

Jasma McCullough,
Plaintiff—Appellant,
versus
Shaylonda Herron; Sonya White; Fredrick Jones,
Defendants—Appellees.

Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:17-CV-83

Before Owen, Chief Judge, and King and Engelhardt, Circuit Judges.
Per Curiam:*
A mother brought suit under 42 U.S.C. § 1983 against three
employees from the Texas Child Protective Services, alleging constitutional
violations in connection with the removal of her children in 2015. We affirm
the district court dismissal of all Defendants.

* Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

Case: 20-20058

cument: 00515675598

Page: 2

te Filed: 12/16/2020

No. 20-20058

I.
In November 2014, the Texas Department of Family and Protective
Services (“TDFPS”) received reports from the paternal grandmother of
Plaintiff Jasma McCullough’s (hereafter referred to individually as
“McCullough”) children alleging medical neglect and neglectful
supervision. According to the grandmother, McCullough had three children:
a two-year-old with a “seizure disorder” and a four-year-old who lived with
the grandmother, and a nine-month-old baby who lived with McCullough in
her car. The report was referred to Child Protective Services (“CPS”)
Investigator Shayolonda Herron (“Herron”).
Five days after the first report about McCullough’s medical neglect of
her two older children, and before investigator Herron had contacted
McCullough, CPS received another report, this time from law enforcement.
The investigation report submitted by the Houston Police Department
expressed concern about McCullough’s children, and in particular, her
youngest child, after a verbal altercation between McCullough and the father
of the child. It was reported that McCullough drove off with the father’s
vehicle while holding her child on her lap. According to the intake report,
McCullough stated she “does not have a stable place to live,” and will have
to leave her sister’s home in a few days with “nowhere else to take the
children.”
In less than one week, CPS had received two reports - from two
separate sources - that all three of McCullough’s children were endangered
or put at increased risk of harm due to the conduct of their mother. Herron
informed her supervisor, Sondra White (“White”), about the second report,
and was instructed to “immediately go out on the case and try to make
contact with the family, and staff the case from the field.”

Case: 20-20058

cument: 00515675598

Page: 3

te Filed: 12/16/2020

No. 20-20058

Herron interviewed McCullough about the allegations in both reports
on December 9, 2014. According to Herron’s investigative notes,
McCullough did not believe there was anything wrong with holding the child
in her lap while driving; when the children got sick, she took them to the
emergency room; the two-year old had a seizure two weeks earlier as a result
of a fever; she admitted that the child’s seizures were happening more
frequently, but only occurred when he has a fever; and she confirmed that
the children did not have a primary care physician because she had missed
too many appointments.
Herron asked McCullough to sign a safety plan agreeing to take all the
children to a doctor and to take a drug test. McCullough attempted and failed
several times to take the children to see a pediatrician due to insurance
coverage issues. Herron threatened to pursue legal actions if McCullough did
not take the drug test and take her children to the doctor. After not showing
for her first scheduled drug test and reportedly arriving after close of business
for her second, McCullough submitted to a drug test. McCullough’s hair
follicle test was positive for cocaine, but the urinalysis test was negative.
After seeing McCullough’s drug test results, on January 5, 2015,
Herron appeared before a state court and swore to the contents of two
affidavits supporting TDFPS’s request for an emergency removal of
McCullough ’ s three children from her custody. The affidavits based the need
for removal on medical neglect and neglectful supervision of McCullough’s
children, and omitted reference to the negative urinalysis. Herron testified
that one child had a history of seizures, McCullough had failed to take the
child to the doctor, and McCullough had tested positive for cocaine. Herron
did not, at that time, testify about the negative test result. Herron
recommended removal due to medical neglect because all three children
were behind on routine medical and dental appointments, and the middle

Case: 20-20058

cument: 00515675598

Page: 4

ate Filed: 12/16/2020

No. 20-20058

child’s seizure condition continued to be unaddressed. The court granted an
emergency order of removal.
On January 14, 2015, a hearing was held on the emergency removal of
the children. Herron stated that her current concerns for the children were
McCullough’s positive hair follicle drug test, lack of residence, and the
on going conflict with the father of two of her children. At this hearing,
Herron also referenced the negative urinalysis while under oath. At the
hearing, McCullough denied taking illegal drugs and denied her middle child
had a seizure disorder. At the conclusion of the hearing, the court appointed
the TDFPS as the temporary managing conservator and approved the
placement of the children with a family member and supervised visits for
McCullough. Her children were returned to her 14 months later.
McCullough filed suit on January 6, 2017 against “all who were
directly involved and participated in the wrongful removal and retention” of
her children. After filing a series of eight amended complaints, and adding
and removing entities and individuals as defendants, McCullough
complained that four TDFPS employees and Harris County violated her
constitutional rights when they obtained an emergency removal order based
on false information. Specifically, she alleged four causes of action: (1)
violation of substantive due process rights to familial association and
integrity; (2) violation of procedural due process rights to familial
associational rights; (3) violation of Fourteenth Amendment rights; and (4)
violation of the Fourth and Fourteenth Amendment rights.
On June 7, 2018, the district court adopted a magistrate judge’s
recommendation to dismiss Harris County and the individual defendants for
violations of McCullough’s procedural due process rights and found that
McCullough failed to state any violation of substantive due process against
Defendants White or Jones. The court also partially denied Herron’s motion

Case: 20-20058

cument: 00515675598

Page: 5

ate Filed: 12/16/2020

No. 20-20058

to dismiss, finding that Herron was not entitled to qualified immunity based
on McCullough’s allegation that Herron lied in her affidavit to obtain the
court order for removal of the children, allowing only McCullough’s due
process claim against Herron to proceed. On September 3, 2019, the district
court granted Herron’s motion for summary judgment, after finding that
Herron was entitled to qualified immunity. McCullough appeals the
dismissal of claims against Defendants Herron, White, and Frederick Jones
(“Jones”)
II.
In her motion for summary judgment, Herron asserts that she is
entitled to qualified immunity because she did not violate McCullough’s
constitutional right to family integrity for two main reasons: First, that
Herron is entitled to absolute immunity for her state court testimony. And
second, that McCullough cannot show objectively unreasonable violations of
clearly establish federal constitutional law. The district court granted
summary judgment after finding McCullough failed to raise a fact issue that
Herron knowingly made false statements in her affidavit.
On appeal, McCullough raises eight points of error, the central issue
of which is whether the district court correctly held that the Defendants were
entitled to qualified immunity from McCullough’s claims under the
Fourteenth Amendment, which prohibits state actors from depriving
individuals of “life, liberty, or property, without due process of law.” U.S.
Const, amend. XIV; see Morris v. Dearbome, 181 F.3d 657,666-67 (5th Cir.
1999) (citing Stanley v. Illinois, 405 U.S. 645 (1972), and explaining that the
right to family integrity is a form of liberty protected by the Fourteenth
Amendment’s Due Process Clause). In response, Defendants argue the
district court correctly concluded they were entitled to qualified immunity
from McCullough’s Fourteenth Amendment claims.

5

Case: 20-20058

cument: 00515675598

Page: 6

ate Filed: 12/16/2020

No. 20-20058

We review the motion for summary judgment de novo, and we apply
the same standard as the district court, viewing the evidence in the light most
favorable to the nonmovant. First Am. Title Ins. Co. v. Cont3l Cos. Co.> 709
F.3d 1170, 1173 (5th Cir. 2013). Summary judgment is appropriate where
“there is no genuine dispute as to any material fact and the movant is entitled
to judgment as a matter of law.” FED. R. Civ. P. 56(a). Courts do not
disfavor summary judgment, but, rather, look upon it as an important process
through which parties can obtain a “just, speedy and inexpensive
determination of every action.” Celotex Corp. v. Catrett, 477 U.S. 317, 327
(1986).
McCullough also appeals the dismissal of supervisors White and
Jones. The district court adopted the report and recommendation of the
magistrate judge to dismiss all claims against Defendants, except the
substantive due process claim against Herron, on July 11, 2018. The court
denied McCullough’s motion for reconsideration and motion to correct
errors, and dismissed White and Jones. We review the district court’s grant
of the supervisor’s motion to dismiss de novo. Wampler v. Sw. Bell Tel. Co.,
597 F.3d 741, 744 (5th Cir. 2010).
Qualified Immunity
“Summary judgment is required if the movant establishes that there
are no genuine issues of material fact and the movant is entitled to judgment
as a matter of law.” Brown v. Callahan, 623 F.3d 249, 253 (5th Cir. 2010)
(citing Fed. R. Civ. P. 56(c)). In order to prevail on a claim under Section
1983, a plaintiff must establish that the defendant deprived the plaintiff of
their constitutional rights while acting under the color of state law. Moody v.
Farrell, 868 F.3d 348, 351 (5th Cir. 2017). When a public official invokes a
qualified immunity defense, however, the burden shifts to the plaintiff to

6

Case: 20-20058

cument: 00515675598

Page: 7

ate Filed: 12/16/2020

No. 20-20058

rebut the defendant’s assertion. Cantrell v. City ofMurphy, 666 F.3d 911,918
(5th Cir. 2012).
“The doctrine of qualified immunity protects government officials
from civil damages liability when their actions could reasonably have been
believed to be legal.” Morgan v. Swanson, 659 F.3d 359, 370 (5th Cir. 2011)
(en banc); Ashcroft v. Al-Kidd, 563 U.S. 731, 743 (2011) (Qualified immunity
gives government officials breathing room to make reasonable but mistaken
judgments about open legal questions.); Pearson v. Callahan, 555 U.S. 223,
231 (2009) (The protection of qualified immunity applies regardless of
whether the government official’s error is a mistake of law, a mistake of fact,
or a mistake based on mixed questions of law and fact). Child protective
service workers are entitled to qualified immunity to ensure that an effective
child-abuse investigation system exists. Stem v. Aheam, 908 F.2d 1, 5 (5th
Cir. 1990). Qualified immunity “protects all but the plainly incompetent or
those who knowingly violate the law,” and applies unless existing
precedent...placed the statutory or constitutional question beyond debate.”
Id. at 371. Government officials are entitled to qualified immunity from
liability for civil damages unless (1) the official violated a statutory or
constitutional right (2) that was clearly established at the time of the
challenged conduct. Reichle v. Howards, 566 U.S. 658, 664 (2012).
A right is deemed to be clearly established when “the contours of the
right [are] sufficiently clear [such] that a reasonable official would understand
that what he is doing violated that right.” Wemecke v. Garcia, 591 F.3d 386,
392 (5th Cir. 2009). “That is not to say that an official action is protected by
qualified immunity unless the very action in question has previously been
held unlawful, but it is to say that in the light of pre-existing law the
unlawfulness must be apparent.” Hope v. Pelzer, 536 U.S. 730, 739 (2002).
To establish qualified immunity as a defense, a defendant must demonstrate

Case: 20-20058

cument: 00515675598

Page: 8

te Filed: 12/16/2020

No. 20-20058

that the alleged conduct occurred while they were acting in their official
capacity. Beltran v. City ofEl Paso, 367 F.3d 299, 303 (5th Cir. 2004).
Substantive Due Process
The constitutional guarantee of substantive due process prohibits
arbitrary or conscience-shocking action by state actors. See Doe ex rel Magee
v. Covington Cnty. Sck Dist. ex rel. Keys, 675 F.3d 849, 867 (5th Cir. 2012).
Among other protections, the federal constitution protects the right to
“family integrity,” which is characterized as a “form of liberty guaranteed
by the due process clause of the Fourteenth Amendment,” including the
“rights to conceive and to raise one’s children” and to maintain the
“integrity of the family unit.” Morris 181 F.3d at 666-67 (quoting Stanley 405
U.S. at 651). This right can also be described as “the right of the family to
remain together without the coercive interference of the awesome power of
the state.” Hodoromki v. Ray, 844 F.2d 1210,1216 (5th Cir. 1988).
The Supreme Court has referred to the “interest of parents in the
care custody, and control of their children” as “perhaps the oldest of the
fundamental liberty interests recognized” by the Court. Troxel v. Granville,
530 U.S. 57, 65 (2000). The right, however, is not absolute. States have an
interest in adopting necessary policies to protect the health, safety, and
welfare of children. Morris, 181 F.3d at 669; see also Wooley v. City ofBaton
Rouge, 211 F.3d 913, 924 (5th Cir. 2000).
This court has enunciated a test to determine whether the conduct of
state actors violated the constitution by analyzing claims of state interference
with the right to family integrity “by placing them, on a case by case basis,
along a continuum between the state’s clear interest in protecting children
and a family’s clear interest in privacy.” See Morris, 181 F.3d at 671. The
question whether McCullough alleged a violation of the substantive due
process right to family integrity can be answered by assessing whether

Case: 20-20058

cument: 00515675598

Page: 9

ate Filed: 12/16/2020

No. 20-20058

Herron’s individual actions were arbitrary or conscience shocking on the
continuum between private and state interests. They were not.
The TDFPS received a referral implicating McCullough of medical
neglect and neglectful supervision. Herron was assigned to the case and
initiated her investigation by interviewing McCullough’s children.
McCullough initially refused to be interviewed or cooperate with CPS, but
eventually agreed after she was threatened with legal action to remove the
children. McCullough confirmed to Herron that she was behind on the
children’s vaccinations, failed to attend several doctor’s appointments for
her children, and tested positive for cocaine after a hair follicle test.
After the investigation and interviews surrounding the separate
referrals to the TDFPS from the children’s grandmother and the Houston
Police Department, Herron prepared an affidavit to the state court in support
of removal. In the affidavit, Herron highlights a previous incident involving
CPS from 2012, the positive hair follicle drug test, and medical concerns for
the children, but omits reference to the negative urinalysis drug test. The
court reviewed the affidavit and signed the emergency order of removal. A
follow-up hearing was held shortly after on the emergency removal of the
children where Herron testified that her concerns for the children were
McCullough’s lack of residence, the positive drug test, and ongoing conflict
between McCullough and the father of two of her children.
McCullough alleges that Herron knowingly and intentionally included
false information in her affidavits and testimony to the court. Specifically,
McCullough alleges that Herron failed to properly investigate the allegations
of medical neglect, misrepresented the facts in the affidavit that the children
were in imminent danger, determined the children were medically neglected
without medical records, and that McCullough failed a drug test, engaged in
a domestic dispute, and drove with her baby on her lap.

9

Case: 20-20058

ument: 00515675598

Page: 10

ate Filed: 12/16/2020

No. 20-20058

Herron’s actions did not violate McCullough’s substantive due
process rights. Herron was assigned to investigate a report of neglected
children, after two independent referrals were received by the TDFPS, and
did so. Herron sought voluntary compliance from McCullough, and after
frustrated interactions, suspected McCullough of using illegal substances
and requested a drug test. McCullough’s drug testing was two-fold: her hair
follicle test was positive, and her urinalysis test was negative. Herron’s
affidavit based the need for removal on medical neglect for failure to
vaccinate her children or take them to a dentist, and she testified that one
child had a history of seizures and was not taken to an appropriate medical
appointment and that McCullough tested positive for cocaine.
Herron also recommended removal on the basis of negligent
supervision, citing the domestic dispute with the child’s father reported by
Houston Police, and McCullough’s confirmation that the child was
unrestrained in the vehicle. All of this information was evidence to Herron
that the children were in immediate danger and their continuation in the
home would be contrary to their welfare.
Herron presented the information and based her recommendation to
the court based on what she was aware of at the time. The record does not
support the assertion that Herron intentionally lied, misrepresented, or
fabricated evidence to the court. Cfi Rogers v. Lee Cntyv Missn 684 F. App’x
380, 390 (5th Cir. 2017) (affirming a district court’s grant of summary
judgment on a substantive due process claim where evidence showed state
actors “demonstrate]!!] at most negligence or incompetence rather than a
conscience-shocking intent to lie about, misrepresent, or fabricate
evidence”); Morris v. Dearborne, 181 F.3d 657, 668 (5th Cir. 1999) (“[W]e
conclude that the district court was correct in holding that a teacher’s
fabrication of sexual abuse against a student’s father shocks the
contemporary conscience.”).

10

Case: 20-20058

cument: 00515675598

Page: 11

ate Filed: 12/16/2020

No. 20-20058

The record does not include any evidence of the predicate conscienceshocking behavior needed to support a substantive due process claim. An
inconsistency in an affidavit, along with assertions that Herron should have
done more beyond the many visits, phone calls, interviews, and investigations
she conducted before reaching her conclusions, do not amount to evidence
of “arbitrary or conscience-shocking” conduct. There are no genuine issues
of material fact precluding a finding, as a matter of law, that Herron did not
violate McCullough’s Fourteenth Amendment substantive due process
rights.
Procedural Due Process
Procedural due process must be provided before parents are deprived
of their liberty interest in the custody and management of their children.
Santosky v. Kramer, 455 U.S. 745,753-54 (1982). The procedural protections
include, at a minimum, notice and an opportunity to be heard in a meaningful
time and manner. Gibson v. Tex. Dep3t. oflns.-Div. of Workers3 Comp., 700
F.3d 227, 239 (5th Cir. 2012) (quoting Puentes v. Shevin, 407 U.S. 67, 80
(1972)). The analysis of a procedural due process claim has two steps: (1)
whether a liberty or property interest exists with which the state has
interfered; and (2) whether the procedures attendant upon the deprivation
were constitutionally sufficient. Meza v. Livingston, 607 F.3d 392, 399 (5th
Cir. 2010)).
This court has established that the Fourth Amendment governs social
workers’ investigations of allegations of child abuse. Wernecke v. Garcia, 591
F.3d 386, 399-400 (5th Cir. 2009). Due Process that satisfies Fourth
Amendment standards is adequate to protect parents Fourteenth
Amendment liberty interest in their child’s custody. Gates v. Tex. Dep t of
Protective &Regul. Servs537 F.3d 404, 435 (5th Cir. 2008). It is also clearly
established that a constitutional violation occurs if an official makes a

n

Case: 20-20058

cument: 00515675598

Page: 12

ate Filed: 12/16/2020

No. 20-20058

knowing, intentional, or reckless false statement or omission that causes the
issuance of a warrant without probable cause that leads to the removal of a
child from its parent’s custody. Franks v. Delaware, 438 U.S. 154, 155-56
(1978).
Once the TDFPS receives a report of abuse or neglect, it must
promptly and thoroughly investigate. TEX. FAM. CODE § 261.301(a). If the
TDFPS believes that the child’s immediate removal is necessary to avoid
further abuse or neglect, it must file a petition or take other action under
chapter 262 for the child’s temporary care and protection. Id. § 261.302(d);
see In re E.C.R., 402 S.W.3d 239, 246-47 (Tex. 2013). Under Texas Law, a
state court may authorize the TDFPS to take possession of a child without
prior notice and a hearing if the state court finds among other reasons that
“there is an immediate danger to the physical health or safety of the child or
the child has been a victim of neglect or sexual abuse and that continuation in
the home would be contrary to the child’s welfare” or “reasonable efforts
consistent with the circumstances and providing for the safety of the child
were made to prevent or eliminate the need for removal of the child. ” Id. §
262.102(a). TDFPS’ suit for possession without prior notice and a hearing
“must be supported by an affidavit sworn to by a person with personal
knowledge.” Tex. Fam. Code § 262.101.
In Marks v. Hudson, this court considered whether the mother of three
minor children could overcome a claim of qualified immunity by social
workers based on the mother’s allegations that the social workers performed
a deficient investigation into allegations of child abuse and made false
statements in affidavits to obtain a temporary order of removal of the children
from her home. 933 F.3d 481 (5th Cir. 2019). The court concluded that a
Fourth Amendment violation exists for a false affidavit submitted to the court
for the purpose of obtaining a child seizure order. Id. at 486. The court
determined that the standard to be employed was probable cause. Id. In doing

12

Case: 20-20058

#cument: 00515675598

Page: 13

ate Filed: 12/16/2020

No. 20-20058

so, the court confined its review to consider whether, after removing the
plausibly claimed fabrications, and inserting all plausibly claimed omitted
material, the affidavit would still support the court’s finding of probable
cause. Id. at 487.
The undisputed summary judgment evidence supports Herron’s
statement that McCullough tested positive for cocaine from a hair follicle
test. The fact that the contemporaneous urinalysis sample tested negative
does not raise a constitutional claim that Herron lied in her affidavit. The
negative urinalysis would only raise an inference that the cocaine usage was
not recent. The probable cause determination would remain unchanged with
this additional information. Indeed, the court’s conclusions at the initial
emergency hearing—finding that TDFPS could properly take temporary
custody of the children without knowledge of the negative result—were the
same as those reached during the subsequent hearing, once testimony about
the negative test had been introduced. Hence, the omission of the negative
test result from the affidavit did not “lead to the removal of the child from
the parent’s custody.” Marks, 933 F.3d at 486. The summary judgment
evidence does not support a finding that Herron knowingly or intentionally
made a false statement in her affidavit about McCullough’s drug test results.
Next, we examine McCullough’s allegation that Herron’s affidavit
claimed that the children were being medically neglected without medical
records. The TDFPS received the initial referral after the children’s paternal
grandmother contacted the Department about their medical condition and
reported that one child had a seizure disorder and McCullough had failed to
take the child to a follow-up medical appointment. In reviewing the summary
judgment record, the grandmother was the primary caregiver for two of
McCullough’s three children, and reported characteristics of McCullough
that would be objectively necessary to investigate, specifically that she was
unstable and often evicted. The father of the children followed up with this

13

Case: 20-20058

ument: 00515675598

Page: 14

ate Filed: 12/16/2020

No. 20-20058

report and supported the assertion that McCullough was not taking care of
the children and had refused to take them to the doctor for medically
necessary appointments. In her report, Herron noted that McCullough had
not taken the children to the doctor at the time of the hearing, despite
previously stating her intent to do so. The summary judgment evidence does
not support a finding that Herron knowingly or intentionally made a false
statement in her affidavit about the child’s seizure disorder or the children’s
medical needs.
Herron’s affidavit also recounts the report received from the Houston
Police Department, stating that McCullough had her baby on her lap while
driving after a verbal altercation with the child’s father. McCullough denies
the baby was on her lap, and instead argues the child was restrained in the
back seat of the car, but failed to support this assertion with an affidavit. In
examining the facts known to Herron at the time, the police report and
testimony from other family members support Herron s statement. The
statement, even if assumed false, was immaterial to the court’s finding of
probable cause for medical neglect. McCullough has failed to present any
evidence raising a genuine dispute of facts, and summary judgment is proper.
As detailed above, McCullough has alleged a liberty interest in family
integrity and the state’s interference in that interest. After reviewing the
summary judgment evidence and record, McCullough has failed to adduce
any facts that suggest that the procedures were constitutionally insufficient.
Herron initiated contact after she received multiple reports of neglect.
Herron requested an interview with McCullough. McCullough admitted that
Herron requested an interview with her and that she chose to have nothing
to do with CPS. ” McCullough has failed to state a claim against Herron for a
violation of her procedural due process rights.

14

Case: 20-20058

ument: 00515675598

Page: 15

ate Filed: 12/16/2020

No. 20-20058

Supervisory Liability Under Fed. R. Civ. P\ 12(b)(6)
Lastly, while Herron kept her supervisors informed of her efforts to
investigate, neither Jones nor White personally investigated the allegations.
In order to establish supervisor liability for constitutional violations by
subordinate employees, a plaintiff must show that the supervisor acted or
failed to act with deliberate indifference to constitutional rights being violated
against others by their subordinates. Pena v. City ofRio Grande City, 879 F.3d
613, 620 (5th Cir. 2018). Rule 12(b)(6) permits dismissal for “failure to state
a claim upon which relief can be granted.” Fed. R. Civ. P. 12(b)(6). We
review the district court’s grant of a motion to dismiss de novo. Budhathoki
v. Nielsen, 898 F.3d 504, 507 (5th Cir. 2018).
McCullough alleged Jones and White “explicitly approved” of
Herron’s actions, but failed to support the conclusory allegation and bare
assertions that Jones or White knew about or approved of any purportedly
false statement in Herron’s affidavit. See Ashcroft v. Iqbal, 556 U.S. 662, 662
(2009) (stating the court need not accept as true conclusory allegations).
There is, for example, no adequately pleaded allegation that Jones or White
ordered or were advised of the falsification of the testimony in the affidavit.
See Southard v. Tex. Bd. of Crim. Just.} 114 F.3d 539, 550 (5th Cir. 1997)
(noting that the misconduct of a subordinate must be “conclusively linked
to the action or inaction of the supervisor). Claims that are insufficiently
pleaded are properly dismissed. Deal v. Bank ofN.Y. Mellon, 619 F. App x
373, 374 (5th Cir. 2015). In short, as the district court correctly concluded,
McCullough’s complaint failed to state a § 1983 claim against White or Jones.
These claims were correctly dismissed pursuant to Rule 12(b)(6) below.
III.
Lastly, McCullough argues that the district court erred in denying her
motion for leave to amend her complaint. A district court’s denial of a motion

Case: 20-20058

cument: 00515675598

Page: 16

ate Filed: 12/16/2020

No. 20-20058

to amend the pleadings is reviewed for abuse of discretion. Moore v. Manns,
732 F.3d 454, 456 (5th Cir. 2013). “[A] court should freely give leave” to
amend pleadings “when justice so requires.” Fed. R. Civ. P. 15(a)(2).
Likewise, a district court’s denial of a motion to alter or amend judgment is
reviewed for abuse of discretion and need only be reasonable. Edionwe v. Bai­
ley, 860 F.3d 287, 291-92 (5th Cir. 2017).
We reject McCullough’s argument that the district court abused its
discretion by denying her motion to alter or amend judgment. A Rule 59(e)
motion “calls into question the correctness of a judgment.” In re Transtexas
Gas Corp., 303 F.3d 571, 581 (5th Cir. 2002). It serves the narrow purpose of
allowing a party to correct manifest errors of law or fact or to present newly
discovered evidence. Templet v. HydroChem Inc., 367 F.3d 473, 479 (5th Cir.
2004). “Reconsideration of a judgment after its entry is an extraordinary
remedy that should be used sparingly. ” Id. (emphasis added). Such a motion
is not the proper vehicle for rehashing evidence, legal theories, or arguments
that could have been offered or raised before the entry of judgment. Id. (citing
Simon v. United States, 891 F.2d 1154,1159 (5th Cir. 1990)).
Additionally, while an explanation of the reasons for a denial of a
motion to amend is preferred, it is not an abuse of discretion where the
reasons for denial are apparent. Mayeaux v. LA Health Serv. and Indem. Co.,
376 F.3d 420, 426-27 (5th Cir. 2004). In the report and recommendation on
the supervisors’ motion to dismiss, the magistrate judge ordered that “no
further amendments will be allowed as [McCullough] has amended her
complaint eight times.” The district court adopted the report and
recommendation without opinion. In light of the history of eight amended
complaints over a year, we do not believe that the district court abused its
discretion in denying the appellant leave to file another amended complaint.

16

Case: 20-20058

ument: 00515675598

Page: 17

ate Filed: 12/16/2020

No. 20-20058

IV.
For the foregoing reasons, the judgment is AFFIRMED.

17

APPENDIX B
*

.

■*

*
*

Case 4:17-cv-0

Document 140 Filed on 10/10/1

JXSD Page 1 of 1
United States District Court
Southern District of Texas

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION

ENTERED
October 10, 2019
David J. Bradley, Clerk

jasma

McCullough,

§
§
§
§
§
-§
§
§
§

Plaintiff,
v.
SHAYOLONDA HERRON,
Defendant.

Civil Action No. H-17-83

ORDER ADOPTING MEMORANDUM AND RECOMMENDATION
Pending before the court are the Magistrate Judge's Memorandum
and
f

Recommendation

McCullough's

(Docket

Objections

Recommendation

as

to

to

Entry
the

No.

137),

Plaintiff

Magistrate's

Defendant's ^Motion

for

Jasma

Memorandum
Summary

and

Judgment

(Docket Entry No. 138), and Defendant Shayolonda Herron's Response
to Plaintiff's Objections to the Magistrate Judge's Report and
Recommendation (Docket Entry No. 139).
The court must review de novo portions of the Magistrate
Judge's

proposed

matters

to

obj ections.

which

findings
the

and

parties

recommendations
have

filed

on

dispositive

specific,

written

See Fed. R. Civ. P. 72(b); 28 U.S.C. § 636(b) (1) .

The court has reviewed the Memorandum and Recommendation,
Plaintiff's objections, and Defendant's response and concludes that
Defendant Herron is entitled to qualified immunity for the reasons
explained in the Memorandum and Recommendatio^
SIGNED this

day of October, 2019

;!
!

SIM LAKE
SENIOR UNITED STATES DISTRICT JUDGE

V

APPENDIX C

Ml

J

SD Page 1 of 29

Case 4:17-cv-000^P|Document 137 Filed on 09/03/19

United States District Court
Southern District of Texas

entered
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN -DISTRICT OF TEXAS
HOUSTON DIVISION
jasma

§
§
§
§
§
§
§
§
§

McCullough,
Plaintiff,

v.
SHAYOLONDA HERRON,
Defendant.
MEMORANDUM

for Summary Judgment

David J. Bradley, Clerk

Civil Action No. H-17-83

and recommendation

Pending before the court
Motion

September 03, 2019

i

is Defendant Shayolonda Herron's
(Doc.

107) ,

Plaintiff's Motion

In

Limine 'to Exclude Undisclosed Exhibits G, H and I of Defendant's
Motion for Summary Judgment (Doc.' 108), and Plaintiff s Response m
115) .
Opposition to Defendant's Motion for Summary Judgment (Doc.
Having

considered

Plaintiff's Motion.

the

motions

and

the

responses

thereto,

In Limine is GRANTED, and it is RECOMMENDED that

Defendant's Motion for Summary Judgment be GRANTED.
I.

Case Background

and county child
Plaintiff filed this action against state
alleged constitutional violations
for
protection officials
children from her
resulting from the forcible removal of her
custody in 2015.

This case was referred to the undersigned magistrate judge pursuant
- <*>'
the
to 28 U.S.C
5,
Civil Justice Reform Act, and Federal
Ord. Dated Jan. 12, 2017.

Case 4:17-cv-000^^Docum.ent 137 Filed on 09/03/19

A.

SD Page 2 of 29

Factual Background
in November 2014, Texas Department of

Plaintiff alleged that
Family Protective
("Herron")

("TDFPS")

Services

referrals

received

alleging

neglectful supervision by Plaintiff
children.2

In

her

live

complaint,

children had been medically
failed

to

properly

demanded that

employee Shayolonda Herron
medical

neglect

and

concerning two of her three
Plaintiff

denied

that

the

neglected and complained that Herron

investigate

the

When

allegations.

Plaintiff take a drug test,

Herron

Plaintiff alleged,

she

protested but eventually complied.
On January 5, 2015

Herron appeared before a judge of the 311

th

Texas, and swore to the
Judicial District Court of Harris County,
contents of two affidavits

supporting her request for an emergency

removal of Plaintiff's three

children from Plaintiff's custody.

Herron orally explained to the judge that

Plaintiff had failed to

the doctor and that
take one child with a history of seizures to
use on December 29,
Plaintiff had tested positive for cocaine
2014.6

The court then considered the affidavits.

7

See Doc. 78, Pl.'s 8 th Am. Compl. p- 20.
See id.

p. 2 .

See id. p. 21.
for Summ. J., Tr . of Hr' g.
See Doc. 107-6, Ex. F to Def.'s Mot.
See id. p. 6.
See id■ p.

9.
2

SD Page 3 of 29
Case 4:17-cv-00 0^^Document 137 Filed on 09/03/19^^^

The first affidavit concerned KNM, described as a four-year
old boy with a reported medical history of a
The second affidavit concerned KRM,
eleven-month old.9

seizure disorder.8

a three-year old, and KS,

an

The affidavits are otherwise identical and will

be referred,to as one document.
Herron's affidavit averred that TDFPS had received an intake
report of medical neglect concerning KNM on November 22,

2014. 10

In the report, the child's paternal grandmother stated that she was
complained that she had learned
the child's primary caregiver and
a
seizure disorder after he had two
two weeks earlier that KNM had a
ii According to
seizures in one day and required a hospital visit.
the grandmother, the hospital recommended that KNM needed a follow
up visit with a neurologist.

12

The grandmother also reported that

for medical or dental
Plaintiff had not taken any of her children
checkups and had not had the children vaccinated.

13

The grandmother

stated that Plaintiff was "very unstable," and was often evicted

for Summ. J., Aff. of Herron p.
See Doc. 107-1, Ex . A to Def.'s Mot.
3.
for Summ. J, Aff. of Herron.
See Doc. 107-2, Ex. B to Def.'s Mot.
for Summ. J., Aff. of Herron p.
10
See Doc. 107-1, Ex. A to Def.'s Mot.C to Def.'s Mot. for Summ. J-,
Ex.
107-3,
3. The report is found at Doc.
Investigation Report p. 1.
ii

for Summ. J., Aff. of Herron p.
See Doc. 107-1, Ex. A to Def.'s Mot.

12

See id.

13

** See id.

3.

3

L

\

Case 4:17-cv-00(^^ Document 137 Filed on 09/03/19^j^< SD Page 4 of 29

from apartments. 14
affidavit

Herron's

recounted

that

five

days

later

TDFPS •

received a second intake referral alleging neglectful supervision
15
That report
of KS, the eleven-month-old, half-sibling of KNM.
stated that Plaintiff's brother took Plaintiff to the residence of
KS's father because Plaintiff wanted to borrow the father's truck.
When KS's father refused,

16

he and Plaintiff engaged in a verbal

altercation, followed by a physical altercation between Plaintiff's
brother and KS's father. n

Plaintiff got into the truck and drove

18
away with KS on her . lap.

The

father chased the truck,

and

Plaintiff surrendered the truck to the father three-quarters of 'a
mile away. 19
the

The report related that KS's father then returned to

apartment

complex

and

drove

his

truck

into

the

vehicle

belonging to Plaintiff's brother.20 No one was injured; KS's father.
was arrested. 21
Herron's affidavit explained that, after receiving the first
referral, she had attempted to locate Plaintiff but was unable to

14

See id.

15

See id.

10

See id.

17

See id.

18

See id.

19

See id.

20

See id.

21

See id. pp.

3-4.

4

SD Page 5 of 29

Case 4;17-cv-00Q^^Document 137 Filed on 09/03/19

22

After
do so because the address on the intake form was incorrect.
23
Herron stated
the second referral, a new address was obtained,
second time and
that she was unsuccessful at contacting Plaintiff a
24
Herron also attempted to
left her card at Plaintiff's residence,
contact KNM's father, Nathaniel McCoy ("McCoy").25
On December 1, 2014, McCoy returned Herron's call and told her
that he wanted custody of his two children with Plaintiff because
she was not taking care of them.26
seizures

and

neurologist. 27

that

Plaintiff

refused

He recounted that KNM had
to

take

the

child

to

a

McCoy also complained‘that the children's clothing

took the children to get
was always dirty and that Plaintiff never
Plaintiff moved frequently
their hair cut.*20 He also related that
Facebook.29
and had posted pornographic videos of.herself on
December 4, 2014,
According to Herron's affidavit, on
n 0

Plaintiff returned Herron's call and stated that she would come to
Herron's

office with KS in order to

22

See id. p.

23

See id.

24

See id.

25

See id.

26

See id. p.

27

See id.

26

See id.

29

See id.

30

See id.

4.

5.

5

resolve

the

investigation.

30

Case 4:17-cv-00q^^ Document 137 Filed on 09/03/19^pjK SD Page 6 of 29

31
On December 8,
However , Plaintiff did-not appear as promised.
2014, Herron followed up with Plaintiff. 32 Plaintiff agreed to meet

Herron on December 9, 2014, at Plaintiff's residence.

33

On December 9, 2014, Herron met with Plaintiff, who was living
leased by her sister who had
in an empty apartment that had been
was a small Christmas
moved out. 34 The only furnishing observed
tree. 35

Plaintiff stated that they slept on air mattresses.

36

According to Herron's affidavit, Plaintiff admitted that she
m
had a domestic dispute with KS's father and that she drove away
37
the vehicle with KS on her lap.

Plaintiff told Herron that

Plaintiff did not think there was anything wrong with holding KS on
her lap while driving, 38

Plaintiff admitted that the children did

not have a primary care physician and explained that,
children got sick, she took them to the emergency room.
Plaintiff

also

31

See id.

32

See id.

33

See id.

34

See id.

35

See id.

36

See id.

37

See id.

38

See id. p. 6.

39

See id.

admitted that

6

KNM had

a

if the

39

seizure

recently

Case 4:17-cv-00

Document 137 Filed on 09/03/19^|XSD Page 7 of 29

because he had a fever of 102.1 degrees. 40 After administering
Tylenol and Motrin,

the child was fine. 41

Plaintiff

safety plan

signed a

Herron reported that

and agreed to

take

all

three

children to the doctor. 42
The affidavit recounted that, on December 10, 2014, Plaintiff
called Herron to reschedule the children's doctor's appointment
because Plaintiff's mother was unable to provide transportation. 43
Herron told her that rescheduling was unacceptable; nonetheless,
Plaintiff

rescheduled the

appointment

online

for December

12,

2014.44
Herron further averred that on December 13, 2014, she informed
Plaintiff that Plaintiff must take a drug test, 45

When Plaintiff

offered excuses for not being able to comply with this request,
such as she did not have identification or transportation, Herron
told

Plaintiff

that

she

would meet

facility to verify her identity. 4 6
On

December

40

See id.

41

See id.

42

See id.

43

See id.

44

See id.

45

See id.

46

See id.

47

See id.

14,

2014,

7

at

the .testing

Plaintiff never arrived. 47

Herron

\

Plaintiff

again

attempted

to

obtain

Case 4:17-cv-00

Document 137 Filed on 09/03/19

XSD Page 8 of 29

compliance with her request that Plaintiff submit to drug testing.
At first,

Plaintiff stated that she did not have transportation;

when Herron offered her a ride, Plaintiff stated she had a ride and
was on her way.'59

Plaintiff .did not get a drug test that day, later

telling Herron that Plaintiff did not know that the lab closed at
5:00 p.m. 50
On

December

18,

2014,

Herron gave

Plaintiff an ultimatum,

either submit to drug testing and take the children to the doctor
or

Herron

would pursue

legal

action

against

her. 51

Plaintiff

submitted to a drug test that day and made a doctor's appointment
4 •

2014.52

for the children, on December 22,

On December 23,

2014,

Plaintiff told Herron that she was not able take the children to
the doctor because they were not signed up for Medicaid.
Herron

suggested

that

Plaintiff

apply

for

Medicaid

53

When

benefits,

Plaintiff asked for Herron's supervisor's name and number.^
on December 29,

According to the affidavit,

2014,

Plaintiff

informed Herron that the clinic would not see the children without

48

See id.

49

See id.

50

See id.

51

See id.

52

See id.

53

See id.

54

See id.

8

Case 4:17-cv-00

Document 137 Filed on 09/03/19jj|XSD Page 9 of 29

Herron offered to look up the shot records

their shot records.55

for the children online; Plaintiff advised that the doctor's office
was about to remove her from the clinic because she was being rude
and disrespectful. 56
The affidavit also stated that on January 4, 2015, a check of
the Texas Alcohol and Drug Testing website showed that Plaintiff's
drug test was positive for cocaine. 57

The affidavit did not include

. the additional information that the positive drug screen was based
on a hair sample and that a blood test from the same day returned
a negative result.58

As of January 5, 2015, Plaintiff had not taken

the children to the doctor.59
Herron's affidavit recounted that Plaintiff and McCoy had a
prior incident involving Child Protective Services in 2012.60

Then

it was reported that a child was,in the custody of his father when
he fell off a milk crate and injured his head.

61

emergency medical treatment and fled with the boy,

McCoy refused
throwing him

over a fence in order to evade emergency medical personnel and law

55)

See id. p. 7.

56

See id.

57

See id.

58

See Doc. 107-5, Drug Test Results, pp. 2-5.

55

See Doc. 107-1, Ex. A to Def.'s Mot. for Summ. J., Aff. of Herron p.

60

See id.

61

See id.

7.

9

Case 4:17-cv-000

enf orcement.62

w

Document 137 Filed on 09/03/19 i

SD Page 10 of 29

Herron's affidavit stated that Plaintiff was aware

of McCoy's drug usage but still allowed the child to reside with
McCoy.

63

The family was referred for additional services at that

time.64
Herron's affidavit reported that Plaintiff had no criminal
record but that McCoy had been convicted of aggravated assault on
a

family member

confinement.65

in April

2012

and was

sentenced

to

two

years

Herron also stated in her affidavit that Plaintiff

refused to give the caseworker information about other relatives as
alternative custodians for the children because her family did not
want to be involved with Child Protective Services.66
Herron's affidavit concluded:
All reasonable efforts have been made to work with Ms.
McCullough to ensure the children's medical needs are
met.
However, due to the ongoing untreated seizure
activity from 4yo K[NM], the mother's constant misleading
the agency of making the children medical appointments,
failure to provide medical insurance, constant delay in
following directives given to her by TDFPS for the safety
and wellbeing of her children to get the children medical
checkups, placing 11 month old K[S] in a dangerous
situation by holding him in her lap while operating a
motor vehicle and engaging in a domestic violence dispute
with the father,
, and testing positive for
cocaine.
Therefore, the [TDFPS] are requesting to be
name[d] Emergency Managing Conservator [of the three

62

See id.

63

See id.

64

See id.

65

See id.

66

See id.

*

10

SD Page 11 of 29

Case 4;17-cv-000^^Pocument 137 Filed on 09/03/19

children].
The court reviewed the affidavits and signed the emergency
order of removal.

A follow-up hearing was set for January 14,

67

2015, at 8:00 a.m.68
On January 14,
removal

of

the

2015,

a hearing was

Plaintiff,

Herron,

children.69

held on the

emergency

McCoy,

McCoy7s

mother, KS's father and the children's attorney ad litem were all
Herron testified about Plaintiff's refusal to comply

present. 70

with Herron's requests for medical checkups for the children and '
Plaintiff's failed drug test.
numerous

opportunities

to

71

Herron recounted giving Plaintiff

comply

with

Plaintiff's excuses for not doing so.

Herron's

requests

and

72

Herron testified that KNM had been placed with his paternal
grandmother
checkups
concerns

and

and
his

about

was

now

current

vaccinations. 73
returning

KNM

with
She
to

his

medical

stated

that

Plaintiff's

and
her

dental
current

custody

were

Plaintiff's positive drug test, Plaintiff's lack of any residence,

67

See id. p. 9.

68

See id.

See Doc. 107-7, Ex. G to Def.'s Mot. for Summ. J., Hr'g Tr. Dated
Jan. 14, 2015, Hr'g Regarding KNM.
69

70

See id. p. 2.

71

See id. p. 8 .

72

See id. p. 10.

73

See id.
11

S.

Case 4:17-cv-000^^pocument 137 Filed on 09/03/19

SD Page 12 of 29

and the ongoing conflict between Plaintiff and McCoy,

74

Herron

. testified that she had asked McCoy to take a drug te'st but, as of
the hearing, he had not done so.
At the hearing,

75

Plaintiff denied taking illegal

drugs and

76
She admitted that the
denied that KNM had a seizure disorder.
v
77
Plaintiff also admitted that
children's shots were not current.

she had made and canceled several doctor's appointments

for the

children leading up to the emergency removal of the children from
her custody, 76

Plaintiff admitted that her brother and KS's father

car
had a dispute over the vehicle but denied that KS was not m a
seat when she drove.off in the vehicle,

79

She admitted driving the

vehicle three-quarters of a mile with KS's father hanging onto the
outside of the vehicle but denied knowing that he was there because
the car stereo was loud,

80

KS's father testified that during the

incident when he was hanging off the outside of the vehicle,

he

observed that KS was standing in the back seat of the vehicle and

74

See id. pp. 11-12.

that he was on
See id. p. 13. Later in the hearing, McCoy admitted
McCoy denied smoking
fpi^nv oarole for assaulting Plaintiff. See id_i_ p. zy.
Y
and stated that he expected to pass a drug test if required. See id.
marijuana
pp. 28-29.
75

76

See id. p. 15.

77

See id. p. 16.

78

See id. pp. 17-19.

79

See id. p. 19.

80

See id.

pp. 20-21. •

12

SD Page 13 of 29

ocument 137 Filed on 09/03/19

Case 4:17-cv-000

not strapped into his car seat.81
At the conclusion of the hearing, the court appointed TDFPS as
the temporary managing conservator and approved the placement of
the children with KNM's paternal grandmother.82

McCoy was ordered

to take an instant drug test, and Plaintiff and McCoy were only
allowed to have supervised visits with the children at the CPS
office. 83
On February 18, 2015, a status report was filed with the court
outlining

the

progress

each

parent

had made

with

respect

to

regaining custody of the children.84
B.

Case Background
On January 6, 2017, Plaintiff filed this action against the

TDFPS, Shayolonda Herron, Sonya White, Deidra Ford, Herbert Canada
and

Fredrick

Jones.85

On

February

8,

2017,

the

individual
t

defendants filed a motion seeking an order compelling a Rule 7(a)
reply from Plaintiff on the ground that, as employees of TDFPS,

See Doc. 107-8, Ex. H to Def.'s Mot. for Summ. J., Hr'g Transcript
Dated Jan. 14, 2015, Hr'g Regarding KRM & KS pp. 23-24, 26. The father stated,
I couldn'-t see
"I was running 40 miles [per hour] holding [on]to the truck,
where KS was. As I'got onto the truck, KS was standing up in the back seat. He
wasn't in his car seat, he wasn't strapped in, he wasn't m her lap. This whole
report is wrong." Id. p. 23.
81

Hr'g Tr. Dated
See Doc. 107-7, Ex. G to Def.'s Mot. for Summ.H J.,
to
Def.'s
Mot. for
107-8,
Ex.
31;
Doc.
Jan. 14, 2015, Hr'g Regarding KNM p.
31.
Hr'g
Regarding
KRM
&
KS
p.
Dated
Jan.
14,
2015,
Hr'g
Tr.
Summ. J.,
32

See Doc. 107-7, Ex. G to Def.'s Mot. for Summ. J., Hr'g Tr. Dated
Jan. 14, 2015, Hr'g•Regarding KNM pp. 32-33.
83

84

See Doc. 107-9, Status Report to the Ct. Regarding KNM.

85

See Doc. 1, PI.'s Orig. Compl.

13

SD Page 14 of 29

• Case 4:17-cv-000 ^^Document 137 Filed on 09/03/19

they were

entitled

to

Amendment immunity,

invoke

affirmative

qualified immunity,

defenses

of

Eleventh

and official immunity.

On February 14, 2017, Plaintiff filed an amended complaint, adding
claims against Kristina Day and Jennifer Lombardi.

87

On March 20, 2017, Plaintiff filed another amended complaint,
this

dropping

time

Kristina

On March 30,

defendants. 88

Day

and

Lombardi

Jennifer

as

Plaintiff filed a third amended

2017,

complaint, again complaining that the defendants violated her Fifth
and Fourteenth Amendments

rights to due process

and her Fourth

Amendment right to be secure in her residence when her children
were removed without a search warrant.
On April
complaint.90

6,

2017,

89

Defendants moved to dismiss

Plaintiff s

In the motion, the individual defendants asserted that

Plaintiff lacked standing to bring claims against TDFPS,. that her
claims against several defendants were not factually supported,
4
matter of law
that Plaintiff's state law claims were barred as a

and

that

the

Rooker-Feldman

doctrine

barred

Plaintiff

from

attacking a state court judgment.

2-4 . At1 a hearing '
See Doc. 12, Defs.' Mot. for Rule 7(a) Reply, PP■
denied
the
motion
and
ordered
Defendants to
held on March 24, 2017, the court
file a motion to dismiss by April 6, 2017. See Doc. 24, Min. Entry Ord. Dated
Mar. 24, 2017.
86

87

See Doc. 13, Pl.'s 1st Am. Compl.

88

See Doc. 23, Pl.'s 2nd Am. Compl.

89

See Doc. 25, Pl.'s 3rd Am. Compl. pp. 3-4.

90

See Doc. 44, Defs.' Mot. to Dismiss.
14

SD Page 15 of 29

Case 4:17-cv-000 ^^Document 137 Filed on 09/03/19

Plaintiff filed amended complaints on April 13,
Ap ril 27, 2017,

2017,

and

adding Harris County Protective Services to the

caption, dropping TDFPS from the caption, and specifying that the
individuals

were

sued

31,

2017,

in

their

individual,

not

official,

capacities .91
On

May

the

court

recommended

dismissal

of

Plaintiff's claims against the individual defendants and Harris
County Protective Services based on the Rooker-Feldman doctrine.
On June 14, 2017, Plaintiff filed a motion for leave to file
a sixth amended complaint.93

In this complaint, she purported to

represent the interests of her minor children.94

Leave was granted,

but Plaintiff missed the deadline to file the amended complaint.

95

Plaintiff's seventh amended complaint was filed on June 26, 2017.
On

July

21,

2017,

the

court

adopted

Recommendation and dismissed the action.

97

the
On

Memorandum
July 24,

and

2017,

Plaintiff filed a motion to correct errors, essentially seeking

91

See Doc. 30, PI. ' s 5 th Am. Compl. p. 1.

The court also denied
See Doc . 47, Mem. & Rec. pp. 10-11.
the
Texas
Attorney
General
from
representing either
Plaintiff's motion to prevent
TDFPS or its employees. See id. p. 12.
92

93

See Doc. 49, Pl.'s Mot. for Leave to Amend’.

91

See id. p. 1.

95
See Doc. 50, Ord. Dated. June 15, 2017; Doc. 51, Am. Mot. for Leave
to Amend; Doc. 56, Am. Mot. for Leave to Amend.
96

th
See Doc. 57,4 Pi.' s 7 Am. Compl.

97

See Doc. 62, Ord. Adopting Mem. & Rec.; Doc. 63, Final J.

15

Document 137 Filed on 09/03/19

Case 4:17-cv-000

SD Page 16 of 29

reconsideration of the court's order of dismissal. 98
2017,

On December 6,

the court reconsidered its dismissal,

reinstated the action on its docket and deemed the Seventh Amended
Complaint to be the live pleading."

On January 25, 2018, Plaintiff

100
was granted leave to file her Eighth Amended Complaint,

complaint,

Plaintiff

complained that

four TDFPS

In the

employees

and

Harris County violated her constitutional rights when they obtained
101
an emergency removal order based on false information.

On

June

Plaintiff's

7,

claims

2018,

the

against

court
Harris

recommended
County

and

dismissal
the

of

individual

defendants for violations of Plaintiff's procedural due process
The court recommended a partial denial of Herron's

rights. 102

motion to dismiss Plaintiff's right to family integrity claim based
on qualified immunity,

finding that Herron was not entitled to

qualified immunity based on Plaintiff's allegation that Herron lied
in her affidavit to obtain the court order for the removal of the
children. 103

That recommendation was adopted on July 11, 2018. 104

Defendant Herron timely filed the pending motion for summary
98

.

See Doc. 66, PI.' Mot. to Correct Errors.

99

See Doc. 71, Ord. Dated Dec. 6, 2017.

100

See Doc. 77, Ord. Dated Jan. 25, 2018.

101

See Doc. 78, PI.'s 8 th Am. Compl. pp. 3-5.

102

See Doc. 90, Mem. & Rec. Dated June 7, 2018 pp. 22, 25.

103

See id. p. 21.

10-1

See Doc. 92, Ord. Dated July 11, 2018.

16

Case 4:17-cv-'

Document 137 Filed on 09/03/19

judgment on February 19,

2019. 105

SD Page 17 of 29

In response,

Plaintiff filed a

motion in limine and a response to the motion. 106
II.
Here,

Plaintiff's Motion In Limine

Plaintiff

Exhibits G,

H,

objects

to

the

court's

consideration

of

and I of Defendant's Motion for Summary Judgment.

Those exhibits are the two post-removal hearing transcripts from
January 14,

2015

(Exs.

dated February 18,

G,

2015

H)
(Ex.

and the Status Report to the court
I).

Plaintiff argues that these

documents were not provided to her in discovery and therefore they
should be

excluded

from

the

court's

consideration

Federal Rule of Civil Procedure ("Rule")

pursuant

to

37(c) (1) .

It is unclear if Plaintiff propounded any written discovery in
this

action,

and

Plaintiff

took

no

action

to

compel

pretrial

production of any document.

However, Rule 26(a) (1) (a) (ii) requires

the

of

voluntary

production

"all

documents

that

the

disclosing party has it its possession, custody, or control and may
use to support its claims or defenses .

.

that

produced voluntarily

these

documents

should have

been

.

."

The court agrees
to

Plaintiff during the discovery period, which expired on January 31,
2019.

The documents are EXCLUDED and will not be considered by the

105

See Doc. 107, Def.'s Mot. for Summ. J.

106-

See Doc. 108, Pl.'s Mot. In Limine; Doc. 115, PI.'s Resp. to Def.'s

Mot. for Summ. J. Plaintiff has filed other motions that are not relevant to the
motions presently before the court and will not be recounted herein.
17

SD Page 18 of 29

Document 137 Filed on 09/03/19

Case 4:17-cv-00

court in its analysis. 107
III.

Summary Judgment Standard

Summary judgment is warranted when the evidence reveals that
no genuine dispute exists regarding any material fact and the
moving party is entitled to judgment as a matter of law.

Fed. R.

Civ. P. 56(a); Celotex Corp. v. Catrett, 477 U.S. 317, 322 (1986);
Stauffer v. Gearhart/ 741 F.3d 574, 581 (5 th Cir. 2014).

A material

fact is a fact that is identified by applicable substantive law as
critical

to

the

outcome

of

the

suit.

Anderson

v.

Liberty

Lobby,Inc., 477 U.S. 242, 248 (1986); Ameristar Jet Charter, Inc.
th
v. Signal Composites, Inc., 271 F.3d 624, 626 (5 Cir. 2001).

To

be genuine, the dispute regarding a material fact must be supported
by evidence such that a reasonable jury could resolve the issue in
favor of either party.
736 F.3d 396,

400

See Royal v. CCC & R Tres Arboles, L.L.C.,

(5 th Cir. 2013) (quoting Anderson,

477 U.S. at

248) .
The movant must inform the court of the basis for the summary
judgment motion and must point to relevant excerpts from pleadings,
depositions, answers to interrogatories, admissions, or affidavits
that demonstrate the absence of .genuine factual issues.

Celotex

Corp., 477 U.S. at 323; Topalian v. Ehrman, 954 F.2d 1125, 1131 (5

th

107
Plaintiff's Response to Defendant's Motion for Summary Judgment
appears to refer to portions of these transcripts, but it is unclear becausethe
pagination does not match the actual transcripts attached to Herron's motion.
Because the court grants Plaintiff's motion, it will not consider what may be
transcript excerpts retyped by Plaintiff in her response.

18

Case 4:17-cv-00

Cir.

Document 137 Filed on 09/03/19

SD Page 19 of 29

If the movant carries its burden, the nonmovant may

1992) .

not rest on the allegations or denials in the pleading but must
Stauffer,

respond with evidence showing a genuine factual dispute.
741 F.3d at 581

(citing Hathaway v. Bazany, 507 F.3d 312, 319

(5

th

Cir. 2007) ) .
IV.
Presently before
judgment

challenging

Analysis

the court
whether

qualified

is

Herron's motion

Plaintiff

immunity

for

can

for

overcome

statements

summary
Herron's

made

in

her

assertion

of

affidavit.

•Plaintiff has not submitted any authenticated summary

judgment evidence in response to Herron's motion.
A.

Qualified Immunity
Government officials are entitled to qualified immunity from

liability for civil damages "unless ' [ (1) ] the official violated a
statutory

or

constitutional

right

[(2)]

that

was

established at the time of the challenged conduct."
Howards, 566 U.S. 658, 664 (2012) .

563

U.S.

731,

743

Reichle v.

Qualified immunity protects an

officer even for reasonable mistakes in judgment.
Al-Kidd,

clearly

(2011) ("Qualified

See Ashcroft v.
immunity

gives

government officials breathing room to make reasonable but mistaken
judgments about open legal questions."); Pearson v. Callahan, 555
U.S. 223, 231 (2009) ("The protection of qualified immunity applies
regardless of whether the government official 's error is 'a mistake
of law, a mistake of fact, or a mistake based on mixed questions of
%

19

Case 4:17-cv-00

law

and

fact. / // )(quoting

Groh v.

shifts

the

burden

defendant's assertion.

Ramirez,

540

U.S.

551,

567

By invoking qualified immunity,

(2004)(dissenting opinion)).
defendant

SD Page 20 of 29

Document 137 Filed on 09/03/19

to

the

plaintiff

to

rebut

a

the

Cantrell v. City of'Murphy, 666 F.3d 911,

918 (5th Cir. 2012) .
B.

Substantive Due Process - Right to Family Integrity
In the court's prior memorandum,

United States

Supreme

Court has

the court found that the

referred to the

"interest

of

parents in the care, custody, and control of their children" as
"perhaps the oldest of the fundamental liberty interests recognized
by this Court.

//108

Troxel v. Granville,

530 U.S. 57, 65

(2000).

Among other protections, this constitutional right protects family
unity from interference by "the awesome power
Hodorowski v.

Ray,

844 F. 2d 1210,

1216

of the

(5 th Cir.

state."

1988)(quoting

Duchesne v. Suqarman, 566 F.2d 817, 825 (2dCir. 1977)).

The right

is not without limits as it is tempered by "the state's interest in
protecting the health, safety, and welfare of children."

Woolev v.

City of Baton Rouge, 211 F.3d 913, 924 (5 th Cir. 2000).
In Marks v. Hudson,
Cir. Aug.

8,

2019),

F. 3d

, 2019 WL 3727817, at *1 (5 th

the court considered whether the mother of

three minor children could overcome a claim of qualified immunity
by state social workers based on the mother's allegation that the
social workers performed a deficient investigation into allegations

108

See Doc. 90, Mem. & Rec. p. 16.
20

Case 4:17-cv-00

Document 137 Filed on 09/03/19

SD Page 21 of 29

of child abuse and made false statements in affidavits to obtain a
temporary order of removal of the children from her home.
In considering whether the law was clearly established at the
time

of

the

affidavits,

challenged

the

court

investigation

reviewed

its

and

prior

claimed deprivations of familial rights.

allegedly

decisions

false

involving

The court found that it

was clearly established in Wernecke v. Garcia, 591 F.3d 386, 399400

(5 th Cir.

2009),

that the Fourth Amendment governed a social

worker's investigation of child abuse allegations and that Stewart
v. Perry, 369 F. App'x 593, 594 (5 th Cir. 2010)(unpublished) clearly
established that due process of law must be afforded to parents
before a child could be removed, permanently or temporarily,
the

home,

absent

exigent

See

circumstances.

Marks,

from

2019

WL

3727817, at *3.
The Marks court also acknowledged that a panel of the court
found in an unpublished opinion that it was clearly established
that a social worker could violate the Fourth Amendment by making
a

false

statement

intentionally,

or

or

with

material

reckless

omission

disregard

for

"knowingly
the

truth"

and
that

resulted in the issuance of a court order for a child's removal
from the custody of his parent.
(quoting

Wernecke

v.

Garcia,

452

Marks,
F.

2019 WL 3727817

App'x

479,

481

(5 th

at

*1

Cir.

2011) (unpublished) (citations omitted) .
The Marks court concluded that,

21

even though the unpublished

Case 4:17-cv-000.

Document 137 Filed on 09/03/19

Wernecke decision was non-precedential,
precedential

case

XSD Page 22 of 29

its citations to other

authority clearly established that

a

Fourth

Amendment violation exists for a false affidavit submitted to a
court for the purpose of obtaining a child seizure order.
Marks, 2019 WL 3727817, at *3.

See

The court turned to the evidentiary

standard to be employed when a social worker is applying for a
temporary order of conservatorship, a temporary restraining order
or an order of attachment authorizing the governmental entity to
take possession of a child.

See Marks, 2019 WL 3727817 at *4.

The

court determined that the standard to be employed was probable
cause.

See id.

The applicable statute, Section 262.102(a) of the Texas Family
Code, permits a governmental entity to take possession of a child
if:
(1) there is an immediate danger to the physical health
or safety of the child . . . and that continuation in the
home would be contrary to the child's welfare;
(2) there is no time, consistent with the physical health
or safety of the child . . . for a full adversary hearing
. . . ; and
(3) reasonable efforts, consistent with the circumstances
and providing for the safety of the child were made to
prevent or eliminate the need for the removal of the
child.
The court then considered whether the allegations in the submitted
affidavits would have supported probable cause.
so,

the

court

confined its

review to

In doing

consider whether,

removing the plausibly- claimed fabrications,
22

See id.

after

and inserting all

Document 137 Filed on 09/03/19^^XSD Page 23 of 29

Case 4:17-cv-00

plausibly claimed omissions, the affidavit would still support the
court's finding of probable cause.

See id.

After reviewing the

alleged fabrications and alleged omissions,

the court found that

there was still probable cause to believe that the child was in
danger.
C.

Id. at *5.

Herron's Affidavit
Having outlined the clearly established law, the court turns

to whether the evidence creates a fact issue that Herron violated
Plaintiff's constitutional rights by lying in her affidavit.

1.

Drug Usage.

The undisputed summary judgment evidence
statement

that

Plaintiff

tested

positive

for

supports Herron's
cocaine

usage.

109

Herron was entitled to rely on a written lab report that showed a
positive result for cocaine when a hair sample was tested.

The

fact that a contemporaneous blood test was negative for cocaine or
that Plaintiff disagrees with the hair sample result does not raise
a constitutional claim that Herron lied in her affidavit.
Even if the court were to consider whether this omitted fact
of the negative blood test would have been material in the court's
finding of probable cause, the probable cause determination would
not change.

The negative blood test would only raise an inference

that the cocaine usage was not recent but would not cast doubt on
the other facts outlined in Herron's affidavit that supported the

109

See Doc. 107-5, Ex. E to Def.'s Mot. for Summ. J., Drug Report p. 1.

23

Case 4:17-cv-00

Document 137 Filed on 09/03/19jJ^XSD Page 24 of 29

removal of the children based on medical neglect and negligent
supervision.
2.

Seizure Disorder/Medical Neglect

Herron's affidavit stated that on November 22, 2014,
received

an

grandmother

intake

referral

from

that

of

reporting

one

the

children's

Plaintiff's

TDFPS

paternal

children

had a

seizure disorder and that he and the other children were being
medically neglected. no

The summary judgment record included this

intake referral in which the grandmother reported that she was the
primary

caregiver

for

the

child

and

his

siblings. in

The

grandmother related that the four-year-old had a seizure disorder
of which Plaintiff was aware, that a hospital recommended follow-up
care with a neurologist, that Plaintiff had not made an appointment
with a neurologist and that Plaintiff had neglected to take all
three

children

vaccinations. 112

for

medical

The

and

dental

grandmother

appointments

further

informed

Plaintiff was "very unstable" and "often gets evicted.

including
TDFPS

that

//112

contacting

the

grandmother and attempting to contact Plaintiff and McCoy,

the

Herron

followed

up

on

this

report

by

110

See Doc. 107-1, Ex. A to Def.'s Mot. for Summ. J., Aff. of Herron p.

in

See Doc. 107-3, Ex. C to Def.'s Mot. for Summ. J.,

3.
Report p. 2.
112

See id.

113

Id.

24

Investigative

Document 137 Filed on 09/03/19jjj^XSD Page 25 of 29

Case 4:17-cv-00

child's father.

114

On November 25, 2015, Herron went to Plaintiff's

residence but no one answered the door. 115
Herron

again

unsuccessful.

attempted

contact

with

On December 2,
Plaintiff,

2014,

but

was

316

2014,

On December 1,

Herron received a call from McCoy who

confirmed his mother's report that Plaintiff was not taking care of
the children, that she had refused to take them to the doctor, that
his son KNM had a seizure disorder and that McCoy wanted custody of
his children. 117
On

December

residence.

118

9,

2014,

Herron

visited

Plaintiff

at

her

Herron recorded that Plaintiff and the children were

living in an empty apartment vacated by Plaintiff's sister, 119

The

apartment had no furniture; Plaintiff explained that they slept on
air mattresses.

120

Herron's report also stated that Plaintiff told

Herron that the children did not have a primary care physician and
that when the children were ill,

114

See id. p. 16.

115

See id. p. 17.

she took them to the emergency

116
See id. p. 18.
Herron noted that after the November 27, 2014
incident, she obtained another address for Plaintiff from the police report. See
id. p. 19.
11*7

See id. p. 19.

118

See id. p. 20.

119

See id.

120

See id.
25

V

I

Case 4:17-cv-00

room.

121

At

Document 137 Filed on 09/03/19^^XSD Page 26 of 29

the

interview,

Plaintiff

admitted

that

KNM

had

a

seizure two weeks earlier but that the seizures occurred only when
he had a fever. 122
doctor.

123

Plaintiff agreed to take all the children to the

Herron's report set out the dates on which Plaintiff

stated that she intended to take the children to the doctor and
that on each occasion, Plaintiff failed to do so. 124
The summary judgment evidence does not raise a fact issue that
Herron knowingly and intentionally, or with reckless disregard for
the truth,

made a false statement in her affidavit about KNM's

seizure disorder.

McCoy and his mother both told Herron that the

KNM had a seizure disorder, and Plaintiff admitted that KNM had had
a

seizure

several

disagrees
history

with

does

weeks

others'

not

raise

earlier.

Simply

characterization
a

fact

issue

because

of

that

her
Herron

Plaintiff

son's

medical

lied

in

her

affidavit when telling the court that family members told her that
KNM

had

a

seizure

disorder.

Additionally,

Herron

produced

sufficient evidence to support her assertion of medical neglect,
and Plaintiff failed to produce any contradictory evidence.
3.

Unrestrained Infant

Herron's

affidavit

121

See id.

122

See id.

123

See id.

124

See id. pp. 20-21.

recounted that TDFPS

26

received a

second

I

Case 4:17-cv-00

Document 137 Filed on 09/03/19Page 'll of 29

referral concerning Plaintiff's children on November 27,

2014,

specifically, that Plaintiff got into a verbal altercation with
KS's father and then drove away in the father's vehicle with KS on
her lap, "not buckled up. //125

The summary judgment evidence shows

that the basis for this information was a Houston Police Department
Report. 126

That

report

stated,

"[Plaintiff]

got

into

[KS's

father's] truck and drove off holding [KS] on her lap not buckled
up.
of f .

[KS's father] jumped onto the door as [Plaintiff] was driving
//127

On December

9,

2014,

during the home visit with Herron,

Plaintiff attempted to explain the altercation between herself and
KS's

father. 128

According

to

Herron's

investigative

notes,

Plaintiff admitted holding KS on her lap as she was driving the car
and did not think it was wrong to do so. 129

Herron also attempted

to contact KS's father about the incident without success. 130
Plaintiff argues that KS was actually restrained in the back
seat of the vehicle during the altercation but failed to support
this averment with an affidavit.

This version of the incident was

125

Doc. 107-1, Ex. A to Def.'s Mot. for Summ. J., Aff. of Herron p. 3.

126

See Doc.

107-3,

Ex.

C to Def.'s Mot.

Report p. 3.
127

Id.

128

See id.

125

See id.

130

See id. p. 20.

27

for Summ.

J.,

Investigative

Case 4:17-cv-00

Document 137 Filed on 09/03/19^j^XSD Page 28 of 29

the substance of her testimony at the post-removal hearing, but as
the court has granted Plaintiff's motion in limine,

it will not

consider the hearing testimony in any way.
Looking solely at the facts as known by Herron at the time of
the making of her affidavit, there was no evidence that KS was in
a car seat during the incident.

Herron's own notes reflect that

Plaintiff admitted that she hel-d KS on her lap as she drove off,
and KS's father would not return Herron's calls.

Even if the court

were to assume that Herron lied in her field notes and the lie was
repeated

in

Herron's

affidavit,

the

false

statement

was

not

material^to the court's determination of probable cause as there is
evidence in the record supporting the removal of the children based
on medical neglect. 131
V.

Conclusion

In conclusion, it was incumbent on Plaintiff to raise a fact
issue that Herron knowingly made false statements in her affidavit.
This she has

failed to do.

It is therefore RECOMMENDED that

Defendant's Motion for Summary Judgment be GRANTED.

It is further

ORDERED that Plaintiff's Motion In Limine is GRANTED.
The

Clerk

shall

send

copies

131

of

this

Memorandum

and

The judge heard Plaintiff testify that KS was in his car seat during
the incident and KS's father's testimony that the child was unrestrained in the
back seat and nonetheless sustained the removal of the children from Plaintiff's
custody. This court can only assume that either the state court did not credit
Plaintiff's testimony or that the court credited Plaintiff's testimony but found
other evidence supporting removal of the children,
Either way, the disputed
testimony must be deemed non-material.

28

Case 4:17-cv-000

Document 137 Filed on 09/03/19^^X80 Page 29 of 29

Recommendation to the respective parties who have fourteen days
from

the

receipt

thereof

to

file

written

objections

thereto

pursuant to Federal Rule of Civil Procedure 72 (b) and General Order
2002-13.

Failure to file written objections within the time period

mentioned shall bar an aggrieved party from attacking the factual
findings and legal conclusions on appeal.
The original of any written objections shall be filed with the
United

States

District

Clerk

electronically,

Copies

of

such

objections shall be mailed to opposing parties and to the chambers
of the undersigned, 515 Rusk, Suite 7019, Houston, Texas 77002.
SIGNED in Houston, Texas, this 3^ day of September, 2019.

d
NancyJ^dfohnson
United States Magistrate Judge

29

Case 4:17-cv-0

Document 141 Filed on 10/10/l^j^TXSD Page 1 of 1
United States District Court
Southern District of Texas

ENTERED
October 10, 2019

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
jasma

McCullough,

§
§
§
§
§
§
§
§
§

Plaintiff,
v.
SHAYOLONDA HERRON,
Defendant.

David J. Bradley, Clerk

Civil Action No. H-17-83

FINAL JUDGMENT
In

conformity with

the Order Adopting Magistrate

Memorandum and Recommendation entered this date

Judge's

and the Order

Adopting Memorandum and Recommendation (Docket Entry No. 92), it is
hereby ADJUDGED that Plaintiff takes nothing against Defendants.
All relief not granted herein is DENIED.

Defendants are

awarded their costs.
THIS IS A FINAL JUDGMENT.
The Clerk will provide a copy of this judgme
SIGNED this

day of October, 2019

all counsel.
xas.

SIM LAKE
SENIOR UNITED STATES DISTRICT JUDGE

